Pome
I

COQCKLE

5 E-Mail Address:
Le ga 1 Bri efs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1088

DAVID and AMY CARSON, as parents and
next friends of O.C., and TROY and ANGELA NELSON,
as parents and next friends of A.N. and R.N.,
Petitioners,
Vv.
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the SUPPLEMENTAL BRIEF
FOR PETITIONERS in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33. 1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 1793 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of June, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

Kevee.0.Lhao Qudemo ht, Ohh

Notary Public Affiant

  

GENERAL NOTARY-State of Nebraska

RENEE J. GOSS
My Comm. Exp. September 5, 2023

 
     

41087
